U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

April 13, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: The Cherokee Nation v. David Bernhardt, Secretary of the Interior, et al.,
No. 19-937
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on January 23,
2020. The government’s response is now due, after two extensions, on April 27, 2020. We
respectfully request, under Rule 30.4 of the Rules of this Court, a further extension of time to and
including May 1, 2020, within which to file a response.
This short extension is necessary because, in light of COVID-19, this Office is endeavoring
to minimize risks to the health and safety of our personnel responsible for the filing and service of
paper copies of Court documents by reducing the number of days each week on which the filing
and service of such documents are necessary and on which those personnel must report to work in
person.
Counsel for petitioner does not oppose this further extension.
Sincerely,

Noel J. Francisco
Solicitor General
cc:

See Attached Service List

19-0937
THE CHEROKEE NATION
DAVID BERNHARDT, SEC. OF THE INTERIOR, ET
AL.

LLOYD B. MILLER
SONOSKY, CHAMBERS, SACHSE,
MILLER & MUNSON, LLP
725 EAST FIREWEED LANE
SUITE 420
ANCHORAGE, AK 99503
907-258-6377
CARTER G. PHILLIPS
SIDLEY AUSTIN LLP
1501 K STREET, NW
WASHINGTON, DC 20005
202-736-8000
CPHILLIPS@SIDLEY.COM

